                                  FOR OFFICIAL USE ONLY
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500                       APR 1 8 2013
MEMORANDUM FOR: SEE DISTRIBUTION

SUBJECT: Accountability of the Air Force's Classified Inventory of Nuclear Weapons-
         Related Material (Report No. DODIG-20 13-064)

       We announced the subject audit on November 6, 2012. The overall objective was to
determine the status of the U.S. Air Force's (Air Force) supply-system procedures for receiving,
marking, storing, and shipping classified nuclear weapons-related material (NWRM). We
planned to assess the supply-chain processes and compliance in the control of sensitive
components for maintenance, quality assurance, engineering inspection, self-assessments, and
oversight.

       The former Deputy Assistant Secretary of Defense for Nuclear Matters requested this
review as a follow-up to Admiral Kirkland H. Donald's (Ret.) "Report oflnvestigation into the
Facts and Circumstances Surrounding the Accountability for, and Shipment of, Sensitive Missile
Components to Taiwan," May 22, 2008. The report resulted from an August 2006 incident when
the Defense Distribution Depot Hill shipped four classified MK-12 forward Section Reentry
Vehicle Assemblies to Taiwan. After discovery of this error in March 2008, former Secretary of
Defense Robert M. Gates appointed Admiral Donald (Ret.) to investigate the facts and
circumstances involving accountability for, and shipment of, the sensitive missile components.
According to the Director for Nuclear Safety, Security, and Response, the former Deputy
Assistant Secretary of Defense for Nuclear Matters sought confirmation that the Air Force had
made progress to correct loopholes that would prevent similar incidents from reoccurring.

        The audit was performed from November 2012 through February 2013 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions. To meet our audit objective, we met with representatives from the
Air Force's Directorate of Logistics, Nuclear Weapons, Munitions and Missile Maintenance
Division (AF/A4L), and the Air Force Audit Agency's Acquisition and Logistics Audit
Directorate (AFAA/QLS). We reviewed all available documentation; applied relevant criteria
including Air Force Instruction (AFI) 20-110, "Nuclear Weapons-Related Materiel Management
{Air Force Materiel Command Supplement)," July 19, 2012; and obtained AFAA audit reports
related to our objective.

        AF/A4L develops and publishes NWRM logistics management guidance. We
determined that AF/A4L established an integrated product team (IPD in August 2012, that is
conducting a comprehensive review ofNWRM management to further streamline and improve
policy, processes, and compliance. The IPT will incorporate-lessons learned in identifying
discrepancies in NWRM identification and inventory procedures and foster solutions within the
boundaries of nuclear surety compliance. The IPT also sponsors forums to actively solicit and
compile all possible issues, questions, or concerns and provide valid DoD and Air Force-
referenced responses to each item. AF/A4L anticipates recommending by April2013 on whether
to continue with current inventory procedures or incorporate new processes.


                                  FOR OFFICIAL USE ONLY
                                  FOR OFFICIAL USE ONLY


         The AFAA published NWRM inventory audit reports at the request of AF/A4L in
response to the Taiwan incident detailed in the May 2008 Admiral Donald (Ret.) report. The
AFAA reports documented AFAA/QLS's thorough coverage ofthe NWRM inventory process at
government-managed and contractor-managed storage facilities. AF AA/QLS auditors conducted
periodic evaluations ofNWRM inventory procedures with NWRM Accountable Officers and
Item Managers located at the storage facilities. The reviews were conducted in accordance with
generally accepted government auditing standards and measured compliance with AFI 20-110.
The scope of the AFANQLS reviews included observing Air Force and contractor inventory
procedures, storage measures, inventory reconciliations, and NWRM training at multiple Air
Force Command locations. The reviews' methodology included obtaining inventory logs from
the five primary inventory systems or from Item Managers at contractor-managed storage
facilities and verifying the stated NWRM inventories through auditor observations, interviews,
and hardcopy documentation reviews. AF AA/QLS auditors did not assess whether the
applicable systems used to track the location and quantity ofNWRM were adequate. At the
conclusion of the evaluations, the auditors produced installation-level reports that were submitted
to AF AAIQLS headquarters. Those reports were reviewed for trends and compiled into a single
report AFAA/QLS issued.

       The most recent AFAA/QLS headquarters report, "Follow-up Audit- Nuclear Weapons
Related Materiel Inventories," December 14, 2012, identified two areas where Air Force
personnel could improve the accuracy ofNWRM inventories. According to the report, logistics
personnel did not accurately record all NWRM assets on accountable records and did not always
properly identify NWRM assets at contractor locations. As a result, Air Force Global Strike
Command, AF/A4L, and Air Force Materiel Command updated guidance, developed procedures,
and modified contracts dealing with NWRM assets. AF AAIQLS accepted managements' actions
to address the issues identified.

        Based on our review ofthe information that AF/A4L and AFAAIQLS provided, we
concluded that the Air Force's procedures for receiving, marking, storing, and shipping NWRM
are adequately monitored with sufficient oversight. The IPT that AF/A4L established and the
reports that AFAAIQLS issued addressed the concerns from the former Deputy Assistant
Secretary of Defense for Nuclear Matters, and our audit objectives. No further audit work by the
Office of the Inspector General for Intelligence and Special Program Assessments is currently
warranted; however, we plan to continue to periodically monitor Air Force oversight ofNWRM.

       Comments to this memorandum are not required. Should you choose to provide a formal
                                                                                      (b)(6)
response, please send your comments in electronic format (Adobe Acrobat file only) to
          (b)(6)                          (b)(6)            (b)(6)
         (              @dodig.mil) and                   (            @dodig.mil). We
appreciate the courtesies extended to the audit staff.




                                                 2
                                  FOR OFFICIAL USE ONLY
                        FOR OFFICIAL USE ONLY


DISTRIBUTION:
UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
  LOGISTICS
ASSISTANT TO THE SECRETARY OF DEFENSE FOR NUCLEAR AND CHEMICAL AND
  BIOLOGICAL DEFENSE PROGRAMS
ASSISTANT CHIEF OF STAFF, STRATEGIC DETERRENCE AND NUCLEAR
  INTEGRATION OFFICE
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
  COMPTROLLER)
AIR FORCE INSPECTOR GENERAL
COMMANDER OF THE AIR FORCE GLOBAL STRIKE COMMAND
COMMANDER OF THE AIR FORCE MATERIAL COMMAND
   COMMANDER OF THE AIR FORCE NUCLEAR WEAPONS CENTER

CC:   SECRETARY OF THE AIR FORCE




                                   3
                        FOR OFFICIAL USE ONLY
